August 2009
Report No. AUD-09-017


Material Loss Review of Haven Trust
Bank, Duluth, Georgia




            AUDIT REPORT
                                                Report No. AUD-09-017                                                                        August 2009

                                                Material Loss Review of Haven Trust Bank,
                                                Duluth, Georgia
    Federal Deposit Insurance Corporation
                                                Audit Results
Why We Did The Audit
                                                Causes of Failure and Material Loss - Haven failed due to bank management’s lack of oversight
On December 12, 2008, the Georgia               and failure to control risk in its loan portfolio. The key events leading to the failure of the institution
Department of Banking closed Haven Trust        included rapid loan growth concentrated in high-risk CRE construction and development loans.
Bank (Haven) of Duluth, Georgia, and            Combined with poor loan underwriting and a lack of risk management controls, these concentrations
named the FDIC as receiver. On                  made the bank vulnerable to fluctuations in the real estate market, and when the metropolitan Atlanta
January 5, 2009, the FDIC formally              real estate market began declining, the bank’s loan portfolio became significantly impaired. Haven’s
notified the Office of Inspector General        management largely ignored the increasing risks of the bank’s loan concentrations and did not fully
(OIG) that the estimated loss to the Deposit    address examiner concerns and recommendations. Subsequent to the January 2008 FDIC examination,
Insurance Fund (DIF) due to this failure        bank management engaged in a number of improper practices, including renewing loans that were
was $207 million. As required by                experiencing problems and originating loans that appeared to be for the benefit of insiders and related
section 38(k) of the Federal Deposit
                                                parties, despite warnings from examiners to control risk in the lending area.
Insurance (FDI) Act, the OIG conducted a
material loss review of the failure of
Haven.                                          As of December 31, 2007, CRE loans totaled 781 percent of Tier 1 Capital, 451 percent of which
                                                represented ADC loans. Despite these significant loan concentrations, the bank’s loan policy did not
The audit objectives were to (1) determine      contain any internal limits on speculative construction loans or provide specific procedures for
the causes of the financial institution’s       monitoring CRE concentrations. Further, there was no guidance in the policy governing interest
failure and resulting material loss to the      reserves, which led to their inappropriate use. Haven’s loan underwriting and administration
DIF and (2) evaluate the FDIC’s                 deficiencies included: (1) loan-to-value ratios in excess of interagency guidelines, (2) using
supervision of the institution, including       incomplete or outdated financial information to assess a borrower’s ability to repay, (3) lending with
implementation of the Prompt Corrective         low-or-no-borrower equity in a project, and (4) poorly managed credit files. Moreover, Haven’s
Action (PCA) provisions of section 38, of       significantly higher cost of funds - typically 100 to 150 basis points higher than the cost of funds for
the FDI Act.                                    banks in its peer group - necessitated riskier lending in order to attain profitability. Haven’s loan losses
                                                resulted in capital and liquidity problems and ultimately led to its failure and a material loss to the DIF.
Background
                                                Assessment of FDIC Supervision and Implementation of PCA - The FDIC’s supervision of
Haven Trust was a state-chartered, non-         Haven was not effective in identifying and addressing problems early enough to prevent a material loss
member institution that was established on      to the DIF. Although the FDIC and the state conducted regular examinations of Haven, the bank’s
January 24, 2000 and headquartered in           high-risk profile warranted earlier and greater attention. Reports of Examination (ROE), from the
Duluth, Georgia. The bank operated four         bank’s inception, noted a pattern of improper insider dealings along with rapid growth concentrated in
branches in the Atlanta area and loan           risky assets, funded by high-cost non-core deposits. However, the high apparent earnings and high
production offices in Birmingham,               apparent capital levels and an overreliance by regulators on bank ownership to infuse capital when
Alabama, and Oklahoma City, Oklahoma.           needed, combined to delay effective supervisory actions. Specific areas in which supervision could
The bank was part of a chain banking            have been more proactive include the bank’s inappropriate use of interest reserves, questionable loan
group that also controlled two other FDIC-      participation practices, and analysis of the allowance for loan and lease losses. When the January 2008
insured banks in Georgia and Florida.
                                                ROE noted deterioration in the financial condition of the bank, its composite rating was lowered to a 3,
From its inception, Haven grew at a rapid
                                                and the bank was placed under an MOU in September 2008. In August 2008, the FDIC appropriately
pace, from $29 million in assets in its first
year of operation in 2000, to approximately     notified the bank, that in accordance with PCA provisions, it could no longer accept brokered deposits
$550 million by 2007. This growth was           without an FDIC waiver. However, by the time supervisory actions were taken against the bank,
predicated upon the use of non-core             failure was all but inevitable. The FDIC has authority to take a wide range of supervisory actions;
deposits and borrowings to fund risky           however, in the case of Haven, supervisory actions were not timely and effective in addressing the
acquisition, development, and construction      bank’s most significant problems. The findings in our review underscore one of the more difficult
(ADC) loans and other types of risky            challenges facing regulators today - limiting risk assumed by banks when their profits and capital ratios
commercial real estate (CRE) loans.             make them appear financially strong.

Haven had been rated a composite 2 at all       The FDIC OIG plans to issue a series of summary reports on our observations on the major causes,
examinations from 2002 until January            trends, and common characteristics of financial institution failures resulting in a material loss to the
2008, when asset quality deterioration was      DIF. Recommendations in the summary reports will address the FDIC’s supervision of the institutions,
identified in the FDIC examination. This        including implementation of the PCA provisions of section 38.
resulted in the bank being rated a
composite 3, and the bank was placed
under a Memorandum of Understanding
                                                Management Response
(MOU). Key provisions of the MOU                On July 31, 2009, the Division of Supervision and Consumer Protection (DSC) provided a written
included developing: (1) an effective
                                                response to the draft report. DSC agreed that, despite Haven’s apparently strong financial condition,
underwriting and credit administration
program, (2) a capital plan, and (3) a
                                                earlier enforcement actions and management component rating downgrades could have been used to
liquidity contingency plan. At a September      address persistent risk management weaknesses.
2008 examination, Georgia banking
officials found significant deterioration of
the bank’s condition and deemed the bank
not viable.

  To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                             Page

BACKGROUND                                                             2

CAUSES OF FAILURE AND MATERIAL LOSS                                    4
   Ineffective Board of Directors                                      5
     Rapid Growth Strategy                                             5
     Loan Policies                                                     7
     Implementation of Examiner Recommendations                        9
     Laws and Regulations                                             10
   Underwriting and Credit Administration                             11
     LTV Guidelines                                                   11
     Borrowers’ Ability to Repay                                      12
     Credit Administration                                            13
     Participations Bought and Sold                                   13
     Use of Interest Reserves                                         14
  Examples of Underwriting and Credit Administration Deficiencies     14
     ADC Loan – Retail Shopping Center                                14
     ADC Loan – Acreage Redevelopment                                 15
     Loans to Purchase Investment Property                            16
     Loan for a Speculative Townhouse Development                     16

ASSESSMENT OF FDIC SUPERVISION                                        17
  Repeat Concerns from Recent Examinations                            18
  Following up on Red Flags                                           19
  Risk Identification and Analysis                                    20

IMPLEMENTATION OF PCA                                                 21

CORPORATION COMMENTS AND OIG EVALUATION                               22

APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                               23
  2. GLOSSARY OF TERMS                                                26
  3. HAVEN’S COMPLIANCE WITH ENFORCEMENT ACTION                       27
  4. CORPORATION COMMENTS                                             28
  5. ACRONYMS IN THE REPORT                                           29

TABLES
  1. Financial Institution Snapshot                                    3
  2. Haven’s Examination History                                       4
  3. Haven’s Non-Core Funding Sources                                  7
  4. Examples of Examiner Comments and Recommendations Regarding       9
       Haven’s Management
  5. Supervisory LTV Limits                                           12

FIGURES
  1. Haven’s Return on Assets Compared to Peer Group                   3
  2. Total Assets                                                      5
  3. ADC Loans as a Percentage of Total Capital – Compared to Peer     6
  4. Property Related to a Loan                                       17
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     August 5, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of Haven Trust Bank, Duluth,
                                          Georgia (Report No. AUD-09-017)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss 1 review of the failure of Haven
Trust Bank (Haven), Duluth, Georgia. On December 12, 2008, the Georgia Department
of Banking and Finance (DBF) closed the institution and named the FDIC as receiver.
On January 5, 2009, the FDIC notified the OIG that Haven’s total assets at closing were
$575.5 million and the material loss to the Deposit Insurance Fund (DIF) was
$207 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision 2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology.
Appendix 2 contains a glossary of terms. Acronyms used in the report are listed in
Appendix 5.

1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    This report presents the FDIC OIG’s analysis of Haven’s failure and the FDIC’s efforts to
    ensure Haven’s management operated the bank in a safe and sound manner. The FDIC
    OIG plans to issue a series of summary reports on our observations on the major causes,
    trends, and common characteristics of financial institution failures resulting in a material
    loss to the DIF. Recommendations in the summary reports will address the FDIC’s
    supervision of the institutions, including implementation of the PCA provisions of
    section 38.


BACKGROUND

    Haven was a state-chartered, non-member bank that was established on January 24,
    2000 3 and headquartered in Duluth, Georgia. In its nearly 9-year history, the bank:

          •    Operated four branches in the Atlanta area and loan production offices in
               Birmingham, Alabama, and Oklahoma City, Oklahoma.

          •    Was a wholly-owned subsidiary of Haven Trust Bancorp, Inc. (HTB), which was
               a shell holding company that provided no services to the bank. HTB was also
               affiliated with two other banks through common ownership and common
               directorate. HTB’s chairman of the board of directors (BOD) was also the
               chairman of the BOD of the two other banks located in Georgia and Florida.

          •    Was considered a minority-owned bank and served both the Indian and Asian-
               American communities around the area. Haven also was a preferred Small
               Business Administration lender.

          •    Concentrated its loan portfolio in commercial real estate (CRE) with a focus in
               acquisition, development, and construction (ADC) and hotel/motel lending.

    From its inception, Haven grew at a rapid pace, from $29 million in assets in its first year
    of operation in 2000, to approximately $575 million by 2008. This rapid growth was
    predicated in part on the use of non-core funding, including brokered deposits, to fund
    risky ADC loans and other types of CRE lending. This strategy appeared to work prior to
    2007 (see Figure 1) when the Atlanta real estate market was performing well and Haven’s
    return on assets compared favorably to its peers.




    3
        The bank’s name was originally Horizon Bank and was changed to Haven in 2005.



                                                         2
           Figure 1: Haven’s Return on Assets Compared to Peer Group
                      (Based on December 2004-September 2008 Data)

    3

    2

    1

    0                                                                         Peer Avg
           2004         2005         2006         2007         2008           Haven Trust
   -1

   -2

   -3

   -4

 Source: Uniform Bank Performance Reports (UBPR).

However, soon after the Atlanta real estate market began experiencing problems, Haven’s
return on assets plummeted due, in part, to bank management having positioned the bank
to be dependent on that market. Other aspects of Haven’s financial condition, as of
September 2008, and for the 4 preceding calendar years follow in Table 1.


Table 1: Financial Institution Snapshot
                                    30-Sept-08    31-Dec-07    31-Dec-06    31-Dec-05    31-Dec-04
  Total Assets ($000s)                $559,551      $504,306     $372,588     $269,127     $175,346
  Total Deposits ($000)               $489,692      $426,482     $317,245     $218,883     $141,394
  Total Loans ($000s)                 $476,408      $420,829     $312,124     $221,568     $148,847
  Net Loan Growth Rate                  28.09%       35.07%       41.04%       48.68%       46.26%
  Tier 1 Leverage Capital Ratio          4.42%        8.09%        9.58%        8.98%        9.53%
  Net Income (Loss) ($000s)           ($13,647)       $5,574       $7,492       $3,874       $1,892
  Return on Assets                      -3.50%        1.42%        2.53%        1.76%        1.32%
Loan Mix as a Percentage of
Average Gross Loans:
 All Loans Secured by Real Estate      82.30%        75.00%       73.52%       78.09%       77.81%
 Construction and Development          35.62%        46.24%       50.35%       62.11%       63.38%
 CRE - Non-farm/nonresidential         30.28%         3.84%        2.88%        2.14%        4.26%
 Other                                 16.40%        24.91%       20.29%       13.83%       10.17%
 Commercial & Industrial Loans         16.02%        23.47%       24.72%       19.69%       19.52%
Funding:
 Net Loans/Deposits                     95.33%       97.68%       97.22%       99.91%       104.02%
 Core Deposits/Average Assets           55.37%       56.01%       57.14%       58.90%        67.85%
Source: UBPRs.


The FDIC’s Atlanta Regional Office and Georgia’s DBF alternated safety and soundness
examinations of Haven, completing a total of seven examinations from December 2000
through January 2008, as shown in Table 2, which follows.


                                                      3
           Table 2: Haven’s Examination History
             Examination Date            Agency         Supervisory Ratings (UFIRS)*
                 1/22/2008                FDIC                    343232/3
                  8/1/2006                State                   222122/2
                 6/20/2005                FDIC                    222222/2
                 3/29/2004                State                   222122/2
                 12/2/2002                FDIC                    222222/2
                12/10/2001                State                   223323/3
                12/20/2000                FDIC                    212323/2
           Source: FDIC’s Virtual Supervisory Information on the Net Database.
           *Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
           (UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym: Capital
           adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and Sensitivity to
           market risk. Each component, and an overall composite score, is assigned a rating of 1 through 5, with
           1 having the least regulatory concern and 5 having the greatest concern.


    Although the FDIC and DBF Reports of Examination (ROE) expressed concerns about
    the lending function from 2002 through 2006, it was not until the January 2008 ROE that
    these concerns were reflected in the CAMELS ratings. To address examination concerns,
    including apparent violations of laws and regulations, inadequate risk management
    controls, and other safety and soundness issues, the FDIC and the bank entered into a
    Memorandum of Understanding (MOU) in September 2008. Also, in August and
    November 2008, the FDIC issued PCA letters notifying the bank that it was no longer
    able to accept, renew, or roll over brokered deposits without an FDIC-approved waiver
    due to the bank falling below the “Well Capitalized’ PCA category. In September 2008,
    the DBF began an examination of the bank and found significant deterioration of the
    bank’s condition and determined that the bank was no longer viable due to critical
    deficiencies in all CAMELS components. Although a final ROE was not issued on the
    September 2008 DBF examination, the draft indicates that on December 10, 2008,
    Haven’s BOD passed a resolution to turn the institution over to DBF for receivership and
    the bank was closed on December 12, 2008.


CAUSES OF FAILURE AND MATERIAL LOSS

    The key cause of failure of the institution was that its BOD did not adequately identify,
    measure, monitor, and control risk in its loan portfolio. Bank management pursued an
    aggressive loan growth strategy concentrated in high-risk CRE construction and
    development loans with poor loan underwriting and funded by high-cost deposits and
    borrowings. Because the majority of CRE in the bank’s portfolio was originated with
    weak underwriting, such as little or no borrower equity in the project, much of the risk
    associated with the loan portfolio tended to rest with the bank rather than the borrower.
    As a result, the combination of the concentration of CRE and poor underwriting made the
    bank vulnerable to fluctuations in the real estate market, and when that market declined,
    the bank’s loan portfolio became significantly impaired. By and large, bank management




                                                            4
       ignored the increasing risks of the bank’s loan originations and failed to address examiner
       concerns or take appropriate steps to manage those risks.


Ineffective Board of Directors

       Examiners repeatedly identified that Haven’s BOD did not adequately control risk in its
       loan portfolio. Management deficiencies included (1) a rapid growth strategy coupled
       with weak underwriting that resulted in a high-risk loan portfolio concentrated in CRE,
       (2) weak loan policies, (3) ignoring or not fully implementing examiner
       recommendations, and (4) not complying with laws and regulations. After the January
       2008 examination, bank management largely ignored examiner recommendations and
       continued to grow the loan portfolio until September 2008, long after the real estate
       market started to decline. Management’s lack of oversight and failure to control risk led
       to substantial losses and capital and liquidity erosion that accelerated the bank’s
       deterioration and eventual failure.

       Rapid Growth Strategy. As indicated in Figure 2, which follows, Haven grew at a rapid
       pace, from $64 million in assets in 2001 to approximately $575 million in 2008 – an
       increase of almost 800 percent, which was significantly higher than banks in its peer
       group.



                                        Figure 2: Total Assets
                                           (Millions of Dollars)
         $600

         $500

         $400

         $300

         $200

         $100

           0
                2001     2002    2003    2004     2005    2006     2007    2008
                                        Calendar Year End
        Source: UBPRs.



       While banks in its peer group averaged growth rates of about 15 percent from 2001 to
       2008, Haven averaged over 40 percent. Moreover, its growth was in higher-risk CRE
       and ADC lending. By December 31, 2007, CRE loans represented 781 percent of
       examiner-adjusted Tier I Capital. Our analysis of Haven’s loan portfolio from 2003 until



                                                      5
it failed indicates that management did not give adequate attention to diversification and,
as a result, excessive concentrations occurred in the bank’s CRE portfolio. Haven’s
management did not adequately address the Interagency Guidance on Concentrations in
Commercial Real Estate (CRE) Lending issued in December 2006, even though the
bank’s CRE concentrations far exceeded the supervisory criteria in the guidance for
additional bank management and examiner attention. Specifically, Haven management
did not establish appropriate limits and standards for CRE lending. While ADC loans as
a percentage of total capital for banks in its peer group ranged from 67 to 124 percent,
Haven’s percentage ranged from 415 to 626 percent, as shown in Figure 3, which
follows.


               Figure 3: ADC Loans as a Percentage of Total Capital -
                                Compared to Peer
            700%
                   626%
            600%             568%

            500%                                                451%
                                        461%                               425%
                                                     415%
            400%
                                                                                             Haven
    Ratio




                                                                                             Peer
            300%

            200%
                                                          117%       124%
                        67%        80%         91%                               115%
            100%

             0%
                   Dec-03 Dec-04 Dec-05 Dec-06 Dec-07 Sept-08

                                         Period End Date
Source: UBPR Reports.


This significant concentration in ADC loans 4 compared to the bank’s peer group average
made the bank vulnerable to changes in the real estate market.




4
 According to the joint Guidance on Concentrations in Commercial Real Estate Lending a significant
concentration occurs when ADC loans represent 100 percent or more of total capital.



                                                    6
The bank’s use of non-core deposits resulted in a higher cost of funds 5 than the cost of
funds for banks in its peer group. From 2005 until it failed, Haven’s cost of funds was 93
to 160 basis points higher than the cost of funds for banks in its peer group. Haven’s cost
of funds was also higher than most banks in the state of Georgia. For example, in 2007,
the average cost of funds for the banks in Georgia was 3.43 percent, while Haven
averaged 4.61 percent – 118 basis points higher. The higher cost of funds necessitated
riskier lending in order to attain profitability. Overall, from December 2004 to
September 2008, the bank became increasingly dependent on high-cost and non-core
funds, as shown in Table 3, which follows.

Table 3: Haven’s Non-Core Funding Sources
                                         Non-Core Funding Sources
                                            (Dollars in Thousands)
   Period Ended        Time Deposits of      Brokered       Federal Home Loan Bank
                      $100,000 or More*      Deposits     Advances and Federal Funds
                                                                   Purchased
       Sept 08                  $146,804       $84,773                       $42,300
       Dec 07                   $149,446       $54,574                       $38,500
       Dec 06                    $98,008       $47,097                       $21,000
       Dec 05                    $63,814       $23,726                       $26,000
       Dec 04                    $26,773        $9,377                       $17,000
       Dec 03                    $21,560              $0                       $5,000
Source: OIG’s analysis of Haven’s UBPRs.
*
  Time deposits of $100,000 or more may include brokered deposits.

Loan Policies. Haven’s loan policies were inadequate for the type of lending it engaged
in. Specifically, its loan policy lacked written guidelines addressing risk diversification
and limits for specific types of lending such as CRE and ADC loans, the use of interest
reserves for the initial construction and development of real estate, out-of-territory loans,
amount of borrower equity required, and limits on speculative development and
construction loans. As a result, sound underwriting procedures were not implemented
which eventually led to significant underwriting deficiencies within the loan portfolio.

According to the FDIC’s Risk Management Manual of Examination Policies
(Examination Manual), prudent management and administration of the overall loan
account, including establishment of sound lending and collection policies, are of vital
importance to the bank. In addition, Part 365 to Appendix A, Interagency Guidelines for
Real Estate Lending Policies, provides the following regarding loan policies:

    The lending policy should contain a general outline of the scope and distribution of
    the institution’s credit facilities and the manner in which real estate loans are made,
    serviced, and collected. In particular, the institution’s policies on real estate lending
    should:

    •    Identify the geographic areas in which the institution will consider lending.

5
 As used in this report, cost of funds was calculated using interest expense as a percentage of average
earning assets.



                                                       7
   •   Establish a loan portfolio diversification policy and set limits for real estate loans
       by type and geographic market (e.g., limits on higher-risk loans).

   •   Identify appropriate terms and conditions by the type of real estate loan.

   •   Establish prudent underwriting standards that are clear and measurable, including
       loan to value (LTV) limits that are consistent with these supervisory guidelines.

   •   Establish review and approval procedures for exception loans, including loans
       with LTV percentages in excess of supervisory limits.

   •   Establish loan administration procedures, including documentation, disbursement,
       collateral inspection, collection, and loan review.

   •   Establish real estate appraisal and evaluation programs.

   •   Require that management monitor the loan portfolio and provide timely and
       adequate reports to the BOD.

   •   Avoid undue concentrations of risk.

   •   Monitor conditions in the real estate markets in its lending area so that it can react
       quickly to changes in market conditions that are relevant to its lending decisions.

Our review of bank records and interviews with bank examiners and bank employees
indicated that the bank’s loan policy either did not address or lacked sufficient criteria for
the following:

   •   Collateral Inspections.
   •   Credit File Memorandums/Financial Analysis.
   •   Participated Loans Purchased.
   •   Out-of-Territory Loans.
   •   Incorporating the Current Allowance for Loan and Lease Losses (ALLL)
       Methodology into the Loan Policy.
   •   Financial Statements and Minimum Ratios.
   •   Interest Reserves.
   •   Minimum Equity Requirements.
   •   Limitations on Development and Construction Loans.
   •   Loan Policy Exceptions.

We discussed the loan policy with a former senior lender of the bank, and he stated that
the policy was purposely general to allow flexibility in originating loans. Despite a high
level of CRE lending, Haven’s management did not develop a lending policy that
incorporated credit underwriting standards detailed in the interagency guidance or
establish internal limits for CRE concentrations.


                                               8
Implementation of Examiner Recommendations. As early as June 2005, examiners
noted contraventions of Appendix A to Part 365. Appendix A states, in part, that
institutions should establish their own internal LTV limits for real estate loans. ROEs
from 2005 through 2008 cited the bank for being in contravention of Part 365. Haven’s
president responded in both 2005 and 2006 that LTV exceptions would be tracked and
reported to the BOD at least quarterly, but BOD minutes we reviewed indicate these
actions were not done. By the January 2008 FDIC examination, Haven was again cited
for loans in contravention to Appendix A, with numerous examples of substantial
variances from acceptable supervisory LTVs provided in the 2008 ROE.

Further, ROEs from 2002 until the bank failed noted concerns about management
practices, but Haven’s management ignored the increasing risks of the bank’s loan
originations and did not take appropriate steps to manage those risks. Management
deficiencies and risks in Haven’s managerial structure are summarized in Table 4 below.

Table 4: Examples of Examiner Comments and Recommendations Regarding Haven’s
Management
                    Examiner Comments                                    Examination Dates
                                                                 Dec    Mar June Aug         Jan
                                                                 2002   2004 2005 2006       2008
Compliance with laws and regulations
  • Apparent violations related to insider, affiliate, or Bank    9      9             9      9
    Secrecy Act activities
  • Apparent violations related to loan underwriting and/or                     9      9      9
    credit administration
Growth of Haven’s operations
  • Loan portfolio was focused on CRE/ADC high-risk                      9      9      9      9
    lending
  • Loan concentrations in brokered and/or out-of-territory                                   9
    loans
Loan policy and procedures
  Inadequate loan policies                                                      9             9
  • Inadequate loan underwriting and/or credit administration                   9      9      9
    procedures
  • Inadequate loan review program                                                            9
Risk management
  • Inadequate internal audit program and/or related risk                              9      9
    assessment process
Examiner recommendations
  • Improve policies and procedures to ensure compliance with     9      9      9      9      9
    laws and regulations
  • Improve loan policy and procedures to include appropriate                          9      9
    internal controls
  • Improve the loan review program and/or related watch list                                 9
  • Improve the audit program and related risk management         9      9      9      9      9
    activities
  • Improve loan underwriting and/or credit administration                      9      9      9
    procedures
Source: Haven’s ROEs issued by the DBF and FDIC.




                                                    9
At the conclusion of the January 2008 examination, the bank was advised by the FDIC to
improve, among other things, its asset quality, including establishing limits on
speculative construction and development loans. In discussions with bank management
leading up to a proposed MOU (see Appendix 3 for details of the MOU), the FDIC told
bank management that it needed to address loan underwriting and credit administration
deficiencies and to correct violations of laws and regulations. However, bank
management disregarded examiner concerns and continued increasing the loan portfolio.

From January 1, 2008 until it failed on December 12, 2008, Haven originated or renewed
over $175 million in loans, most of which were CRE loans. Based on conversations with
Division of Resolutions and Receiverships (DRR) liquidation specialists and our cursory
review, the majority of these loans had underwriting deficiencies, and some were made
for apparent insider benefit. Bank management continued to originate and renew risky
loans despite the fact that the bank was cautioned by examiners to improve asset quality,
and that the bank was operating with a net loss, declining capital, and deteriorating
liquidity.

Laws and Regulations. A summary of the more significant examiner concerns
regarding the bank’s compliance with laws and regulations for the 2004 through 2008
examinations 6 follows:

•      Appraisal Independence. Haven accepted appraisals prepared for someone other than
       Haven, an apparent violation of section 323.5(b)(1) of the FDIC Rules and
       Regulations.
•      Federal Reserve Board Regulation O – Prior Approval. Haven did not obtain prior
       approval for extending credit over established thresholds to directors, shareholders,
       executive officers, or related interests.
•      Federal Reserve Board Regulation O. Three apparent violations of Regulation O in
       the form of aggregated debt of one director exceeding regulatory limits, a loan for a
       director being given a favorable interest rate and a director’s overdraft exceeding
       $1,000 for more than 5 consecutive days.
•      Directors’ Compensation. An apparent violation of Part 364 of the FDIC Rules and
       Regulations, in which directors’ compensation in 2008 was considered unreasonable
       and detrimental to the bank.
•      Brokered Deposits. An apparent violation of Part 337 of the FDIC Rules and
       Regulations in 2008 and 2005 for accepting brokered deposits while Haven was
       considered “Adequately Capitalized” for PCA purposes and had not submitted a
       brokered-deposit application waiver.
•      Paying Debt of the Holding Company. An apparent violation of Federal Reserve Part
       23A, regarding servicing the debt of the parent holding company at a time when
       Haven was prohibited from paying dividends to the holding company without prior
       approval from the DBF.



6
    Includes violations noted by state examiners during their 2008 examination.



                                                        10
      •   Dividend Payments without Approval. An apparent violation of Georgia Banking
          Rules for paying dividends to the parent holding company while prohibited by the
          rules and without prior approval of the DBF.

      Of particular note, in April 2008, shortly after the 2008 FDIC examination was
      completed, Haven made four loans totaling about $2 million, one to each of four children
      of one of the bank’s owners. These loans were all originated on the same day, with
      similar terms (interest payable monthly for the first year), and were reported to be
      secured by the stock of another financial institution’s holding company. In the
      September 2008 examination, the DBF made a number of observations concerning these
      loans. When the loans were made, the bank had failed to obtain the stock certificates
      serving as collateral for the bank files. The value of the stock serving as collateral was
      indeterminable as there was no active market for the stock. In addition, examiners noted
      that the loans were apparently for the benefit of the father. The four children were all
      students with insufficient income sources to repay the debt. The bank obtained the
      personal guaranty of the father for each of the loans. The father’s financial condition was
      reported to be financially leveraged, with limited liquidity, and his repayment ability was
      questionable. The DBF analyzed loans to bank owners and their related interests. Nine
      loans totaling in excess of $12 million, which included the aforementioned loans to the
      bank owner’s children, were adversely classified by the DBF due to inadequate collateral
      support and repayment capacity of the borrowers. Examiners we interviewed commented
      that these loans could be apparent violations of Regulation O concerning loans to
      officers, directors, and shareholders.


Underwriting and Credit Administration

      Haven’s failure can be directly attributed to the weak loan underwriting policies and
      practices used by the bank to extend and administer credit in the CRE market. These
      weaknesses included: (1) LTV ratios in excess of interagency guidelines, (2) incomplete
      or outdated financial information to assess a borrower’s ability to repay, and (3) low or
      no borrower equity in a project. Also evident was weak loan administration, including
      poor funds disbursement practices. Because the majority of CRE in the bank’s portfolio
      was originated with weak underwriting, including insufficient down payments or
      borrower equity, much of the risk associated with the loans tended to rest with the bank
      rather than the borrower. Exacerbating the weak underwriting problems was the fact that
      Haven’s loan portfolio was concentrated in CRE, primarily in ADC loans. As of
      December 31, 2007, CRE loans totaled 602 percent of Tier 1 Capital, of which
      504 percent represented ADC loans. Despite this heavy concentration of CRE and ADC
      lending, the bank’s loan policy did not contain any internal limits on speculative
      constructive loans nor did it provide any specific procedures for monitoring CRE
      concentrations. Further, the loan policy did not provide any guidance governing the use
      of interest reserves, and the bank did not specifically track the use of interest reserves.

      LTV Guidelines. The ROEs from 2005 through 2008 cited Haven for being in
      contravention of interagency guidelines in Part 365 of the FDIC Rules and Regulations


                                                    11
related to real estate LTV. The interagency guidelines (Table 5) provide the following
LTV limits:

       Table 5: Supervisory LTV Limits
                                                                      LTV Limit
                             Loan Category
                                                                       (Percent)
       Raw land                                                           65
       Land development                                                   75
       Construction:
         Commercial, multifamily, and other non-residential                80
         1-4 family residential                                            85
        Source: FDIC Rules and Regulations Part 365.



Although Haven’s loan policy contained the above LTV limits, in practice, Haven
frequently exceeded the LTV limits, at times making loans with LTVs in excess of
100 percent. We interviewed one of the bank’s senior lenders who stated that the LTV
limits were only guidelines and that the bank would often make loans that exceeded the
guidelines. Also, the bank would generally rely on appraised values rather than actual
cost in computing LTV ratios. For example, examiners found one loan, which Haven
financed for the purchase of land in downtown Atlanta with a purchase price of
$6.5 million, but the appraisal Haven used to value the land was $11.3 million. Haven
was able to lend the borrower $7.3 million (more than the cost of the land) yet show an
LTV ratio of 65 percent, which was within the supervisory limits of the interagency
guidelines. We found that Haven’s practice for construction and development loans was
to calculate the LTV ratio based on the value of the completed project rather than the cost
of the project, and as a result, loan disbursements would exceed actual development and
construction outlays (examples are provided later in this report). This practice is contrary
to the interagency guidelines, which provide that supervisory LTV limits should be
applied to the underlying property that collateralizes the loan. For loans that fund
multiple phases of the same real estate project (e.g., a loan for both land development and
construction of an office building), the appropriate LTV limit is the limit applicable to the
final phase of the project funded by the loan; however, loan disbursements should not
exceed actual development or construction outlays.

Part 365, Appendix A, of the FDIC Rules and Regulations provides, in part, that loans
with LTV ratios in excess of supervisory LTV limits should be identified in the
institution’s records and the aggregate amount reported to the BOD at least quarterly.
Every ROE since 2005 noted that Haven was not following this provision.

Borrowers’ Ability to Repay. Regarding construction and development lending, the
guidance provided to examiners stresses that prudent lending practices should include,
among other things, the following:

   •    Feasibility studies, risk analyses, and sensitivity of income projections to
        economic variables.


                                                  12
   •   The minimum requirement for initial investment and equity maintained by the
       borrower.

   •   Standards for net worth, cash flow, and debt service coverage of the borrower or
       underlying property.

   •   Standards for the use of interest reserves or stipulation that interest reserves will
       not be used.

   •   Standards for the level of speculative loans relative to capital.

   •   Pre-sale and minimum unit release requirements for non-income producing
       property loans.

The 2008 FDIC examination noted that Haven’s financial analysis of borrowers was
weak. The ROE noted the following:

       To properly assess the completion status of projects and authorize funds
       disbursement, management should ensure that collateral inspections are
       conducted prior to loan disbursements and that appropriate documentation is
       maintained. Effective management of risk is dependent on the quality of analysis
       at origination as well as after the loan is advanced. Changes in the credit
       condition or the advancement of additional funds should be documented in credit
       memorandums, and credit memorandums should be updated at least annually.
       Global cash flows, contingent liabilities, interest carries, debt service coverage
       ratios, as well as strengths and weaknesses also need to be included in credit
       memorandums. In addition, when management relies on the borrower’s net worth
       to support the credit, the credit memorandum needs to include management’s
       validation or verification of the value of real estate and closely-held businesses.

Credit Administration. Credit administration practices at the bank were weak. Our
review of loan files along with discussions with examiners indicated that loan files were
poorly documented and that many loan files lacked cash flow analysis and collateral
inspection reports. Examiners noted that credit files were not being updated at least
annually and the bank frequently relied on stale appraisals. Further, Haven did not have
adequate controls in place to ensure construction projects were inspected before loan
disbursements were made. As discussed later in this report, this practice resulted in loan
disbursements being made that were in excess of the value of completed construction.

Participations Bought and Sold. Financial institutions enter into loan participations for
varied reasons. For some, a primary motivation is to enable the institution to originate
loans that would otherwise exceed the legal lending limit of the institution. By selling
loan participations to other financial institutions, a lead bank can stay within its legal
lending limits while continuing to serve as the primary bank for a customer whose
borrowing needs are outgrowing the legal limits of the bank. Some institutions may sell



                                               13
      or purchase loan participations as a risk management vehicle to diversify loan risks
      among a variety of loans in multiple lending communities.

      Haven entered into a number of loan participation agreements with its affiliated banks
      that had the effect of putting Haven in a secondary-recipient position with the purchaser,
      instead of sharing the risk equally. In the event of default and resolution, the
      participating institution’s credit would be fully satisfied before Haven collected any
      amounts towards its portion of the participation. From bank records that we reviewed,
      Haven sold at least $9 million in loan participations to its two affiliated banks that
      provided for the other banks to be paid in full before Haven could apply any loan
      proceeds to its portion of the loan. FDIC liquidation specialists we interviewed stated
      that this arrangement was not typical of loan participations and that by subordinating its
      loan position, Haven increased its risk.

      Use of Interest Reserves. Haven underwrote ADC loans with corresponding interest
      reserve loans/provisions, which allowed borrowers to fund their interest payments
      through a borrowing line with the bank. However, Haven did not establish a system to
      measure, monitor, and control the volume of loans being underwritten with interest
      reserves. Based on our cursory review of the loan portfolio and interviews with bank
      personnel and FDIC liquidation specialists, we estimated that the majority of the
      $121 million of ADC loans at the 2008 examination were financed with the use of
      interest reserves.

      Haven did not have appropriate controls related to the use and tracking of interest
      reserves, and Haven’s loan policy did not address the use of interest reserves. Haven’s
      use of interest reserves was not identified as a concern until the 2008 ROE. Examiners
      told us that, in retrospect, by using interest reserves, it appears that Haven might have
      been masking the borrowers’ inability to meet their repayment obligations. We found
      several examples where the bank had renewed or replenished interest reserves, giving the
      appearance that certain loans were current when, in fact, they were experiencing
      problems. As a result, the bank’s use of interest reserve loans masked the deterioration of
      the loan portfolio and the bank’s earnings.


Examples of Underwriting and Credit Administration Deficiencies

      To gain insight into the underwriting deficiencies at Haven, we reviewed in detail 10 loan
      files and performed cursory reviews on several other files. The following examples
      illustrate the weak underwriting and poor credit administration problems at the bank and
      how interest reserves were used to mask underwriting and other problems.

      ADC Loan – Retail Shopping Center. In November 2004, the bank entered into an
      ADC loan for $5.8 million with a developer to fund the acquisition of about 7 acres of
      land and the development and construction of a retail shopping center in suburban
      Atlanta. The purchase price of the land was $1.4 million. According to the bank’s credit
      memorandum, the borrower was going to fund $600,000 of the land purchase and borrow


                                                    14
$800,000 from the bank. Following the $800,000 loan advance for the land purchase, the
bank would provide an additional $5 million for the development of the land and
construction of the shopping center buildings. As part of the loan terms and conditions,
the bank required that the developer pre-lease 50 percent of the space before construction
could begin. In June 2005, the bank began funding the development portion of the loan,
and the developer estimated that it would be able to pre-lease, develop, and complete the
project by December 31, 2006. Accordingly, the bank provided an 18-month interest
reserve to fund interest payments through December 31, 2006. The loan was
subsequently modified in June 2007, increasing the loan amount to $6.5 million, then
again in January 2008, increasing the loan amount to $7.4 million. No principal had been
paid on this loan through December 31, 2008, and it was financed using an interest
reserve for 42 months, accruing almost $1 million of interest income.

Our review of this loan showed a number of underwriting and credit administration
deficiencies:

   •   The original commitment required the borrower to provide $600,000 at the time
       the loan closed, but the borrower provided only $369,000. Although the land loan
       appeared to be made at a 57-percent LTV, the actual LTV was 74 percent, which
       is in excess of the interagency guidelines for land loans.

   •   A loan covenant requiring that the project be 50 percent pre-leased before
       construction was removed by the bank in October 2006 when the project was only
       24 percent pre-leased, and it was evident the borrower was having difficulties in
       obtaining lease commitments.

   •   Each time the loan was modified, the bank replenished the interest reserve, giving
       the appearance that the loan was current when, in fact, the loan was experiencing
       problems. The bank financed the loan using interest reserves from June 2005
       through December 31, 2008. As of March 31, 2009, the loan was delinquent.

   •   As the loan exceeded the bank’s internal loan limit of $5 million and legal lending
       limit of $6 million, the bank needed to sell a portion of the loan to another party.
       When the bank could not find a buyer, it sold a portion of the loan to an affiliated
       bank. Bank officials we interviewed were unable to explain why the loan was
       renewed several times and indicated that the loan participation was created to stay
       within the bank’s legal lending limit.

ADC Loan – Acreage Redevelopment. In 2004, Haven entered into an ADC loan with
a developer for $3 million to fund the acquisition of a 25-acre site for development. In
March 2005, the $3 million loan was closed and replaced with a new Haven loan of
$4 million. Then in September 2007, Haven increased the loan to $5 million to allow for
the acquisition of other nearby properties, design and planning costs, and interest
reserves. Haven was to be paid by the sales of various portions of the project or by new
loans taken out by the project’s guarantor. The borrower’s intention was to sell enough
of the land within 12 months to retire the entire debt.


                                             15
Our review of this loan disclosed a number of underwriting and credit administration
deficiencies:

   •   The loan was renewed in 2005, 2007, and 2008, masking the life and performance
       history of the initial credit. We estimated that the bank used an interest reserve
       for this loan for 36 months.

   •   Each loan renewal increased the amount borrowed without covenants or
       restrictions related to development progress and loan funding.

   •   The 2007 loan renewal increased the loan to $5 million, up to the bank’s internal
       lending limit and approaching Haven’s legal lending limit. Haven increased the
       loan amount despite the developer’s poor performance and the lack of progress in
       terms of development and sales of the residential units, the proceeds of which
       were to fund the loan payments. The 2007 loan renewal assisted the borrower
       with $800,000 (part of the $5 million total loan) for interest reserves and other
       requisite costs related to the development.

   •   In March 2009, the FDIC sold this loan at more than a 50-percent discount from
       book value.

Loans to Purchase Investment Property. According to documents in the loan file, in
May 2008, subsequent to the FDIC’s 2008 examination, the bank originated four loans
for $500,000 each to fund the purchase of investment property. The loans were made to
the children of one owner of the bank and were secured by the stock of a sister bank. The
loans were set up as interest only with a 1-year term. These loans had significant
underwriting deficiencies, including the following:

   •   Although purportedly made for investment property, the loans were not secured
       by any investment property, nor were the loan proceeds used to purchase
       property.

   •   The children did not have the financial wherewithal to repay the loans, as they all
       had incomes of less than $20,000.

   •   The stock used to secure the collateral was not publicly traded, which made it
       difficult to assess the stock’s value. FDIC liquidation specialists told us that the
       collateral was likely worthless.

Loan for a Speculative Townhouse Development. In June 2007, the bank financed a
238-townhouse-development project with a loan commitment of $5.6 million. The credit
memorandum notes that the loan was being renewed; however, the original loan amount
was not in the loan file we reviewed. We noted the following deficiencies:




                                              16
       •   Based on the loan file, 100 percent of the land acquisition was financed, which is
           in contravention with the interagency guidelines for real estate lending.

       •   The loan file noted it was “venture speculative” and was being made in a soft real
           estate market. There was nothing in the file to indicate that the borrower had put
           any hard equity into the project.

       •   The loan was funded using an interest reserve, and the loan terms were vague
           regarding how long the interest reserve would be used.

       •   About $1.3 million of the loan was sold as a participation, but the terms of the
           participation agreement provided that the participant would receive principal
           payments before Haven. As a result, all the payment risk remained with Haven.

       •   The loan file had no inspection reports to show that work was performed before
           loan disbursements were made. As of September 2008, approximately $4.3
           million had been disbursed on this loan. The FDIC obtained an appraisal of the
           property (see Figure 4) in April 2009, which showed no construction on the
           project, and estimated that the project was about one-third complete, yet 75
           percent of the loan proceeds had been disbursed.

           Figure 4: Property Related to a Loan

                                                                         Haven used a value of $9.5 million in
                                                                         2007 in calculating a 60% LTV. The
                                                                         project was appraised in April 2009
                                                                         for just over $1 million. As shown in
                                                                         the picture, no vertical construction
                                                                         had been started even though the loan
                                                                         was 75% disbursed.




           Source: Appraisal obtained by the FDIC.



ASSESSMENT OF FDIC SUPERVISION

    Although the FDIC and DBF conducted regular examinations of Haven, the bank’s high-
    risk profile and many red flags warranted earlier and greater attention. ROEs from the
    bank’s inception noted a pattern of questionable insider dealings; rapid growth; and
    concentrations in high-risk CRE/ADC loans, funded by high-cost deposits and
    borrowings. However, Haven’s apparently high earnings and apparently adequate capital
    levels, along with an expectation by regulators that bank ownership would infuse capital


                                                     17
      when needed as they had done in the past, combined to delay effective supervisory
      actions. When the January 2008 FDIC ROE noted deterioration in the financial condition
      of the bank, the CAMELS composite rating was lowered to a 3, and asset quality was
      downgraded to a 4, among other CAMELS component downgrades. The bank was
      placed under an MOU in September 2008 . In August 2008, the bank was notified that
      under PCA, it could no longer accept brokered deposits without an FDIC-approved
      waiver. However, the DBF noted in its September 2008 examination that as of December
      2008, the bank was not in compliance with most of the MOU provisions. Additionally,
      this examination noted that many of the deficiencies identified in the prior examination
      had not been corrected, including maintaining capital sufficient to mitigate the high
      CRE/ADC concentration risk and addressing contingency liquidity needs. The FDIC has
      authority to take a wide range of supervisory actions. In the case of Haven, however,
      these supervisory actions were not timely and effective in addressing the bank’s most
      significant problems.


Repeat Concerns from Recent Examinations

      Starting with the June 2005 ROE, examiners questioned Haven’s loan policies,
      procedures, loan documentation, and credit administration procedures. Additionally,
      examiners identified apparent violations of laws and regulations in every ROE since
      2002. Haven’s management did not take sufficient corrective actions, as these apparent
      violations were still evident in 2008.

      Haven’s CRE loan concentrations were discussed in ROEs dating back to 2004.
      Monitoring and reporting processes related to loan concentrations were found deficient.
      Haven did not take sufficient action to mitigate risk from the CRE concentration
      deficiencies. ROEs from 2004 through January 2008 included statements that the bank’s
      loan portfolio was focused on high-risk CRE/ADC lending. The January 2008 ROE also
      stated that the level of concentrations posed extreme risk to the bank’s capital and
      earnings and required heightened oversight from the BOD and senior management. The
      ROE further stated that bank management failed to control concentration risk by failing
      to establish internal risk limits for different types of CRE lending or implement sufficient
      credit underwriting standards. The ROE noted that management also failed to maintain a
      sufficient level of capital to mitigate the high level of concentration risk and did not have
      adequate capital and contingency liquidity plans. However, examiners did not take
      stronger actions to limit the level of the concentrations or to mitigate the degree of risk
      taken by increasing capital levels until the August 2008 PCA notification and the
      September 2008 MOU. Among other things, the MOU required the bank to formulate
      and implement a sound lending policy, develop/follow procedures for effective loan
      underwriting and credit administration, and monitor and document all loans in excess of
      supervisory LTV guidelines. By the time the MOU was issued in September 2008,
      Haven’s failure was all but inevitable. DSC took limited actions to mitigate the bank’s
      aggregate level of risk exposure, in large part because of the apparent strong financial
      condition of the bank. Also, despite repeated assurances by management that it would




                                                     18
      take corrective actions, no comprehensive action was taken to address examiner
      concerns.
      DSC examiners noted in the 2005 ROE that the bank was in apparent violation of laws
      and regulations for inadequate real estate appraisals and loan originations exceeding real
      estate LTV limits. Additionally, examiners noted a contravention of Appendix A of Part
      365 of the FDIC Rules and Regulations, as the bank frequently exceeded the LTV limits
      and was not tracking or adequately justifying the exceptions. Examiners suggested that
      bank management ensure maintenance of appropriate documentation for its real estate
      loans. The examiners at the 2005 examination recommended the following revisions to
      the bank’s loan policy:

         •   An exception report for loans exceeding supervisory LTV limitations should be
             kept and reported to the BOD quarterly. In addition, the policy should be revised
             to require that the aggregate of all loans exceeding the supervisory limitations
             should not exceed 100 percent of risk-based capital and that commercial real
             estate exceeding the supervisory limitations should not exceed 30 percent of risk-
             based capital.

         •   Statutory lending limits for unsecured/secured loans to one borrower should be
             addressed.

         •   The policy should be amended to reflect the bank’s current practice for loan
             review.

         •   Thresholds should be required for financial information, i.e., financial statements
             and tax returns.

         •   A threshold for industry concentrations should be established at 100 percent of
             Tier 1 Capital to coincide with regulatory monitoring.

      As far as we could determine, none of these recommendations, which could have
      minimized the eventual impact on the bank’s financial condition, were implemented by
      Haven management.


Following up on Red Flags

      Examiners did not always follow up on red flags during examinations of Haven. In
      particular, certain management practices should have heightened examiner attention in
      some areas. Red flags that warranted more in-depth review included: (1) the use of
      interest reserves to keep loans current; (2) many instances of loan renewals and
      modifications; (3) a deficient loan policy that did not address interest reserves,
      concentration limits, and other key borrower information; and (4) the appearance of
      numerous insider transactions. A more in-depth review by examiners could have
      revealed the problems earlier, and supervisory actions may have been taken sooner. The
      lack of action was based, in part, on the high apparent earnings of the bank, its apparently


                                                    19
       adequate capital levels, and reliance by regulators on bank ownership to infuse capital
       when needed.
       DSC examination guidance states that it is essential for examiners to be alert for irregular
       or unusual activity, and to fully examine the circumstances surrounding the activity to
       determine whether there is any substance to them. As necessary, field personnel should
       perform additional work to ensure that the matters are resolved promptly. Our review of
       ROEs and related records showed that management deficiencies were evident at Haven
       for many years. For the most part, examiners identified the management deficiencies and
       brought their concerns to bank management in ROEs and exit meetings with bank
       officials, yet we noted that many of the deficient management practices continued until
       the bank’s failure.

       According to examiners we interviewed, Haven’s loan files typically lacked
       documentation to fully support a borrowers’ ability to repay a loan. Also, many loan files
       lacked documentation for an examiner to fully analyze the borrowers’ financial condition.
       Although examiners identified many technical exceptions in the lending area, individual
       loans were seldom criticized in ROEs until 2008, because the loans were performing in
       accordance with the loan agreements and, according to appraisals on file, appeared to
       have sufficient collateral underlying the loans.


Risk Identification and Analysis

       Examiners did not fully identify risks to the institution in examinations performed.
       Specific areas that warranted more supervisory scrutiny included the bank’s inappropriate
       use of interest reserves, use of questionable loan participations, and the bank’s
       determination of its ALLL.

       The bank’s use of interest reserve loans and the lack of appropriate policies and controls
       over interest reserves were not noted until the 2008 ROE, despite use at Haven from at
       least 2004. Bank officials we interviewed indicated that the majority of Haven’s ADC
       loans were financed with interest reserves. We found several examples where loans had
       been renewed multiple times, which had the effect of masking loan problems. One loan
       we reviewed was financed with an interest reserve for 42 months and accrued over
       $1 million of interest income; however, examiners did not criticize the loan because it
       was performing in accordance with the loan agreement and appeared to have a low LTV.

       In addition, Haven’s use of loan participations, which appear to have masked loan
       problems, were not addressed in examination reports. While reviewing bank records, we
       found at least $9 million in loan participations to Haven’s two affiliated banks that, in our
       opinion, did not appear to be arm’s-length transactions. The participation agreements
       provided for the other banks to be paid in full before Haven could apply any loan
       proceeds to its portion of the loan, which raises questions as to the appropriateness of
       such transactions. FDIC liquidation specialists we interviewed stated that this
       arrangement was not typical of loan participations and significantly increased risk to the
       bank.


                                                      20
    ROEs from 2004 through January 2008 were generally not critical of the bank’s ALLL.
    The DBF’s September 2008 examination noted that the bank was in contravention of the
    December 2006 Interagency Policy Statement on the Allowance for Loan and Lease
    Losses (Interagency ALLL Guidance). The DBF found that the bank’s ALLL analysis
    was flawed due to its use of outdated appraisals, lack of management recognition of loans
    that were subject to impairment analysis, and a lack of qualitative factors for assessing
    the ALLL. The DBF also found the ALLL to be inadequate and determined that the
    ALLL methodology did not provide a reasonable estimate of loss in the loan portfolio.

    In our opinion, additional examiner attention should have been given to the analysis of
    the bank’s ALLL. The Interagency ALLL Guidance provides the following:

           The foundation of any loan review system is accurate and timely loan
           classification or credit grading, which involves an assessment of credit quality and
           leads to the identification of problem loans. An effective loan classification or
           credit grading system provides important information on the collectibility of the
           portfolio for use in determination of an appropriate level for the ALLL.

    Based on our observations and interviews with examiners and former bank employees,
    Haven did not have an effective loan review or loan grading program – key elements in
    determining the adequacy of the ALLL. In addition, despite a higher-than-average risk in
    its loan portfolio, Haven’s ALLL as a percent of total loans was typically less than the
    ALLL of the 1,100 banks comprising its peer group. For example, as of December 31,
    2007, Haven’s ALLL represented 1.01 percent of total loans compared to the 1.21
    percent average for banks in its peer group. Given the inherent risk in Haven’s loan
    portfolio, examiners should have required bank management to develop a better
    methodology for determining its ALLL earlier than 2008.


IMPLEMENTATION OF PCA

    Although the FDIC complied with the PCA provisions of the FDI Act, PCA was not
    effective at limiting loss to the DIF. On August 12, 2008, 4 months before the bank
    ultimately failed, the FDIC notified Haven that its Total Risk-Based Capital Ratio had
    declined to 8.75 percent based on the bank’s June 30, 2008 Reports of Condition and
    Income (Call Report) data and, as a result, the bank fell from the “Well Capitalized”
    category to the “Adequately Capitalized” category under PCA provisions. In accordance
    with PCA provisions, the bank was notified that it would therefore have to apply for a
    waiver from the FDIC in order to accept or renew brokered deposits. On November 17,
    2008, the FDIC’s Atlanta Regional Office notified Haven that based on September 30,
    2008 Call Report data, Haven’s capital ratios were:

           Tier 1 Leverage Capital Ratio         4.42 percent
           Tier 1 Risk-Based Capital Ratio:      4.90 percent
           Total Risk-Based Capital Ratio:       6.16 percent



                                                 21
    Under PCA, Haven was considered “Undercapitalized” and was subject to restrictions on
    asset growth, dividends, other capital distributions, and management fees pursuant to
    section 38(d) of the FDI Act. We concluded that the FDIC appropriately used its
    authority under PCA to prohibit the bank from accepting or renewing brokered deposits
    and placing other required restrictions on the bank.

    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term loss to the DIF. PCA’s focus is on capital, and capital can be a
    lagging indicator of an institution’s financial health as was the case with Haven. Haven
    remained in the “Well Capitalized” PCA category until June 30, 2008, even though the
    bank had many problems as detailed in this report. The inappropriate use of interest
    reserves and the bank’s common practice of renewing problem loans delayed the
    recognition of problems and, ultimately, the deterioration of earnings and capital. By the
    time Haven’s capital level fell below the required threshold necessary to implement
    stronger PCA provisions in November 2008, the bank’s condition had deteriorated to the
    point at which the institution was not viable, absent a massive capital infusion.


CORPORATION COMMENTS AND OIG EVALUATION

    On July 31, 2009, the Director, DSC, provided a written response to the draft report.
    DSC’s response is provided in its entirety as Appendix 4 of this report. In its response,
    DSC agreed that, despite Haven’s apparently strong financial condition, earlier
    enforcement actions and management component rating downgrades could have been
    used to address persistent risk management weaknesses. Also, DSC’s comments
    reiterated the cause of the failure and lack of implementation of examiner
    recommendations.




                                                  22
                                                                                      APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, on or after July 1, 1993, the Inspector General of the appropriate
      federal banking agency shall prepare a report to that agency reviewing the agency’s
      supervision of the institution. The FDI Act requires that the report be completed within
      6 months after it becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from February 2009 to May 2009 in accordance with generally
      accepted government auditing standards. However, due to the limited scope and
      objectives established for material loss reviews, which are generally applied to just one
      financial institution, it may not have been feasible to address certain aspects of the
      standards, as described in the sections that follow.

Scope and Methodology

      The scope of this audit included an analysis of Haven’s operations from January 24, 2000
      until the bank’s failure on December 12, 2008. Our review also entailed an evaluation of
      the regulatory supervision of the institution over the same period.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed ROEs and visitation reports prepared by the FDIC and DBF examiners
                 from 2001 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at the DSC’s ARO and Atlanta
                       Field Office.

                   •   Reports prepared by the DRR and DSC relating to the bank’s closure.

                   •   Review of the bank’s external auditor, Mauldin & Jenkins, at the offices of
                       Carlock, Copeland, & Stair, LLP, in Atlanta, Georgia.




                                                        23
                                                                                      APPENDIX 1


                 •   Bank records maintained by DRR in the Dallas Regional Office that would
                     provide insight into the bank’s failure, various annual reports, and
                     accompanying financial statements.

                 •   Loan files at the receivership in Duluth, Georgia.

                 •   Pertinent DSC policies and procedures.

           •   Interviewed the following FDIC officials:

                 •   DSC management in Washington, D.C., and Atlanta, Georgia.

                 •   DRR officials at the Dallas Regional Office.

                 •   FDIC examiners from the DSC Atlanta Field Office who participated in
                     examinations or reviews of examinations of Haven.

           •   Interviewed various former bank employees familiar with Haven’s operations.

           •   Met with officials from the DBF to discuss the historical perspective of the
               institution, its examinations, state banking laws, and other activities regarding the
               state’s supervision of the bank.

           •   Researched various banking laws and regulations, including State of Georgia
               laws.

Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of Haven’s
      management controls pertaining to its operations as discussed in the finding section of
      this report. For purposes of the audit, we did not rely on computer-processed data to
      support our significant findings and conclusions. Our review centered on interviews,
      ROEs and correspondence, and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not part of the audit objectives. DSC’s
      compliance with the Results Act is reviewed in program audits of DSC operations.

      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with provisions of PCA and limited tests to determine


                                                      24
                                                                           APPENDIX 1


compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                             25
                                                                                    APPENDIX 2
                                  GLOSSARY OF TERMS


       Term                                                Definition
Adversely            Assets subject to criticism and/or comment in an examination report. Adversely
Classified Assets    classified assets are allocated on the basis of risk (lowest to highest) into three
                     categories: Substandard, Doubtful, and Loss.
Allowance for Loan Federally insured depository institutions must maintain an ALLL that is adequate
and Lease Losses to absorb the estimated loan losses associated with the loan and lease portfolio
(ALLL)             (including all binding commitments to lend). To the extent not provided for in a
                   separate liability account, the ALLL should also be sufficient to absorb estimated
                   loan losses associated with off-balance sheet loan instruments such as standby
                   letters of loan.

Concentration        A concentration is a significantly large volume of economically related assets
                     that an institution has advanced or committed to a certain industry, person, entity,
                     or affiliated group. These assets may, in the aggregate, present a substantial risk
                     to the safety and soundness of the institution.

Memorandum of     An informal corrective administrative action for institutions considered to be of
Understanding     supervisory concern, but which have not deteriorated to the point where they
(MOU)             warrant formal administrative action. As a general rule, an MOU is to be
                  considered for all institutions rated a composite 3.
Prompt Corrective The purpose of PCA is to resolve the problems of insured depository institutions
Action (PCA)      at the least possible long-term cost to the DIF. Part 325, subpart B, of the FDIC
                  Rules and Regulations, 12 Code of Federal Regulations, section 325.101, et. seq.,
                  implements section 38, Prompt Corrective Action, of the FDI Act, 12 United
                  States Code section 1831(o), by establishing a framework for taking prompt
                  supervisory actions against insured nonmember banks that are less than
                  adequately capitalized. The following terms are used to describe capital
                  adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                  (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                  Undercapitalized.

                     A PCA Directive is a formal enforcement action seeking corrective action of
                     compliance with the PCA statute with respect to an institution that falls within
                     any of the three categories of undercapitalized institutions.
Regulation O         Limits extensions of credit to any one of a bank’s executive officers, directors, or
                     principal shareholders or any related interest of that person that when aggregated
                     with the amount of all other extensions of credit by the member bank to that
                     person and to all related interests of that person, exceed 15 percent of the bank’s
                     unimpaired capital and unimpaired surplus.
Uniform Bank         The UBPR is an individual analysis of financial institution financial data and
Performance          ratios that includes extensive comparisons to peer group performance. The
Report (UBPR)        report is produced by the Federal Financial Institutions Examination Council for
                     the use of banking supervisors, bankers, and the general public and is produced
                     quarterly from Call Report data submitted by banks.




                                                  26
                                                                                            APPENDIX 3

         HAVEN’S COMPLIANCE WITH ENFORCEMENT ACTION


Haven’s Compliance Record with the FDIC’s September 2008 MOU*
       DBF Description of
      Enforcement Action              DBF Assessment of Status as
            Provisions                    of December 1, 2008                   Compliance Comments
 Risk position in each                Not in compliance.                  Haven engaged a consultant to
 substandard asset of $1 million                                          assist with an action plan, but no
 or more to be monitored and                                              action plans were submitted by
 reported to the BOD.                                                     December 1, 2008.
 Eliminate from the books all         Not in compliance.                  Haven charged off over $410,000
 assets classified as “loss.”                                             in loans based on the DBF
                                                                          examination.
 Formulate, adopt, and                Not in compliance; not              Financial statements and
 implement a sound written            addressed. Haven’s revised          minimum ratios, interest reserves,
 lending policy.                      September 22, 2008 loan             minimum equity requirements,
                                      policy failed to address a          and limitations on development
                                      number of criticisms in the         and construction costs were not
                                      ROE.                                addressed.
 Develop/follow procedures for        Not in compliance.                  Collateral inspections and out-of-
 effective loan underwriting and                                          territory lending provisions were
 credit administration.                                                   not addressed.
 Monitor and document all loans       Not in compliance.                  Report was developed but never
 in excess of supervisory LTV                                             evident in BOD meetings
 guidelines.                                                              following the MOU.
 Develop, adopt, and implement        Not in compliance; not              No comprehensive written CLP
 a written contingency liquidity      addressed.                          was developed as of December 1,
 plan (CLP).                                                              2008.
 Revise the capital, liquidity,       Not in compliance; not              The BOD had not approved a
 and asset/liability policies.        addressed.                          revised capital policy.
 Eliminate/correct apparent           Not in compliance; not              CRE concentration, LTV, and
 violations of laws and               corrected.                          insider overdraft problems not
 regulations and contraventions                                           fully addressed.
 of policy and guidance.
 BOD to review and approve the        Not in compliance.                  BOD approval of the budget was
 bank’s 2008 budget.                                                      not done since issuance of the
                                                                          MOU.
 Submit a capital plan to the         Not in compliance.                  No capital plan was submitted as
 Supervisory Authorities.                                                 of December 1, 2008.
 Do not declare or pay dividends      Not in compliance.                  No capital plan was submitted to
 without prior written consent of                                         Supervisory Authorities as of
 the Supervisory Authorities.                                             December 1, 2008.
 Develop an audit tracking            Not in compliance.                  Report was developed but not
 report outlining deficiencies in                                         included in the quarterly progress
 the ROE.                                                                 report submitted on October 31,
                                                                          2008.
Source: OIG review of the FDIC September 2008 MOU and ROEs.
*
  The FDIC MOU has 18 conditions. This table lists only the 12 conditions for which the DBF assessed
noncompliance as of December 1, 2008.




                                                     27
                                                                                                          APPENDIX 4
                                   CORPORATION COMMENTS                                                           ¿iil
¡; Q            ;¡lí!n ¡¡¡AA~\iA                       Ul"..




       FDICI
       Federal Deposit Insurance Corporation                             DlvisiO 01 Supesi an Consume PrOled
       55 17th Slee tl. Washington. D.C. 2029.99


                                                                         July 31. 2009



        MEMORANDUM TO:                    Russell A. Rau
                                          Assistant Inspector General for Audits

        FROM:                             Sandra L. Thompson
                                          Director

        SUBJECT:                           Draft Audit Report Entitled, Material Loss Review of Haven Trust
                                           Bank, Duluth, Georgia (Assignment No. 2009-014)


        Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
        Insurance Corporation's Offce of Inspector General (OIG) conducted a material loss review of
        Haven Trust Bank (Haven Trust), which failed on December 12,2008. This memorandum is the
        response of the Division of Supervision and Consumer Protection (DSC) to the OIG's Draft
        Audit Report received on July 16,2009.
                                                                                             Banking and
         The Draft Audit Report concludes that the FDIC and the Georgia Department of
         Finance conducted regular examinations of Haven Trust, diagnosed issues, and prescribed
         corrective measures. The report further concludes that Haven Trust failed because the Board of
         Directors and management did not adequately control the risks identified by examiners and did
         not implement recommended corrective actions. We agree that, despite Haven Trust's
         apparently strong financial condition, earlier enforcement actions and management component
         rating downgrdes could have been used to address the persistent risk management weaknesses.

         Thank you for the opportnity to review and comment on the Draft Audit Report.




                                                               28
                                                                           APPENDIX 5
                      ACRONYMS IN THE REPORT


Acronym                                   Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BOD       Board of Directors
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity
          to Market Risk
CLP       Contingency Liquidity Plan
CRE       Commercial Real Estate
DBF       Division of Banking and Finance (State of Georgia Regulatory Agency)
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
HTB       Haven Trust Bank
LTV       Loan to Value
MOU       Memorandum of Understanding
OIG       Office of Inspector General
PCA       Prompt Corrective Action
ROE       Report of Examination
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institutions Rating System




                                         29
